uooM't /-vpptiai. la-iHoz

uou:

meu: u i/ou/zu^u

ry: i 01 c

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1462

JACQUELINE PIDANICK,
Plaintiff - Appellant,
v.

PAUL C. LAROSA, III, individually and in his official capacity; CHRIS
SANKOWSKI, individually and in his official capacity,
Defendants - Appellees.

Appeal from the United States District Court for the District of South Carolina, at Beaufort.
David C. Norton, District Judge. (9:18-cv-01534-DCN-MGB)

Submitted: January 13, 2020

Decided: January 30, 2020

Before MOTZ, HARRIS, and QUATTLEBAUM, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Jacqueline Pidanick, Appellant Pro Se. Robin Lilley Jackson, SENN LEGAL, LLC,
Charleston, South Carolina, for Appellees.

Unpublished opinions are not binding precedent in this circuit.

uov_,av+

«ppeai: i»- i*+oz

UUU ZO

rneu: u i/ou/zuzu

ry: z 01 z

PER CURIAM:
Jacqueline Pidanick appeals the district court’s order accepting the recommendation
of the magistrate judge and denying relief on Pidanick’s amended complaint alleging
constitutional violations under 42 U.S.C. § 1983 (2018) and related claims. We have
reviewed the record and find no reversible error. Accordingly, we affirm for the reasons
stated by the district court. Pidanick v. LaRosa, No. 9:18-cv-01534-DCN-MGB (D.S.C.
Apr. 22, 2019). We dispense with oral argument because the facts and legal contentions
are adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED

2

uoort't Mppeai: is-

ihoz

riieu: uo/^u/^u^u

uou: zs

ry. i 01 i

FILED: March 20, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1462
(9:18-cv-Ol 534-DCN-MGB)

JACQUELINE PIDANICK
Plaintiff - Appellant
v.

PAUL C. LAROSA, III, individually and in his official capacity; CHRIS
SANKOWSKI, individually and in his official capacity
Defendants - Appellees

ORDER
The court denies the petition for rehearing.
Entered at the direction of the panel: Judge Motz, Judge Harris, and Judge
Quattlebaum.
For the Court
/s/ Patricia S. Connor. Clerk

IN THE DISTRICT COURT OF THE UNITED STATES
FOR THE DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION
Jacqueline Pidanick,
Plaintiff,

Civil Action No. 9:18-01534-DCN-MGB

)
)
)
)

)

v.

REPORT AND RECOMMENDATION
AND ORDER

)

Paul C. LaRosa, III, individually and in his )
official capacity; Chris Sankowski,
)
individually and in his official capacity,
)
Defendants.

)
)

This action has been filed by Plaintiff, pro se, pursuant to 42 U.S.C. § 1983, alleging
Defendants violated her free speech rights and that she now suffers physical and emotional
damages. (Dkt. No. 1.) Currently before the Court is Defendants’ Motion for Summary Judgment
(Dkt. No. 30) and Plaintiffs Motion to Notify the Court of Defendant Conduct (Dkt. No. 29).
Pursuant to the provisions of Title 28, United States Code, Section 636(b)(1) and Local Rule
73.02(B)(2)(e), D.S.C., all pretrial matters in cases involving pro se litigants are referred to a
United States Magistrate Judge for consideration. For the reasons stated herein, the undersigned
denies Plaintiffs Motion to Notify the Court and recommends the Court grant Defendants’ Motion
for Summary Judgment.

BACKGROUND
This case arises from the alleged violation of Plaintiff s free speech rights when Defendants
Paul C. LaRosa and Chris Sankowski (“Defendants”) approached Plaintiff in connection with
social media postings she made regarding a local family court judge. (Dkt. No. 1.) Specifically,
Plaintiff alleges that she was engaged in a dispute with the father of her three-year old daughter in
Beaufort County Family Court in November of 2016. (Id. at 3.) According to Plaintiff, they
1

disagreed as to the father’s visitation rights. (Id.) In the course of this dispute, Plaintiff apparently
made certain postings online that eventually resulted in a “Contempt Hearing” in January of 2017.
(Id. at 5-6.)
Subsequently, in March and April of 2017, Plaintiff made two postings online that were
potentially in violation of South Carolina law prohibiting the intimidation of a court official.
Specifically, S.C. Code Ann. § 16-9-340 provides that
(A) It is unlawful for a person by threat or force to:
(1) intimidate or impede a judge, magistrate, juror, witness, or potential
juror or witness, arbiter, commissioner, or member of any commission of
this State or any other official of any court, in the discharge of his duty as
such; or
(2) destroy, impede, or attempt to obstruct or impede the administration of
justice in any court.
(B) A person who violates the provisions of subsection (A) is guilty of a felony and,
upon conviction, must be fined not more than ten thousand dollars or imprisoned
not more than ten years, or both.
On March 4, 2017, Plaintiff posted the following on Facebook: “Ok got to post this just
because it is off the wall ridiculous. I am reading a motion against me, in which it states my rights
(constitutional) can be waived by a Judge and of a lower court in fact. Lol so my duty not to kill
is wavied [sic] too I guess .... ???? Ummm I hope they thought this through.” (Dkt. No. 30-3 at
2.) On March 6, 2017, the South Carolina Law Enforcement Division (“SLED”) received a call
from the office of the judge referenced in the post, notifying them of the post and that it concerned
a judge. (Dkt. No. 30-4 at 2.) Defendant Paul C. LaRosa (“LaRosa”), a special agent with SLED,
prepared a “threat assessment” based on the judge’s concerns and ultimately determined there was
no “threat level” after conducting a background check on Plaintiff. (Id.)
On April 13, 2017, Plaintiff posted online again, saying “I think people are getting sick of
all the family court corruption. Judges are being found dead. I hope the judge that died thought
lying and falsifying evidence like they do in Beaufort County, was worth it. I would never hurt a
2

person ever but others are not so tolerant of this lack of justice. Wake up call beaufort

” (Dkt.

No. 30-5.) LaRosa was notified of this posting on April 17, 2017. (Dkt. No. 30-4 at 3.) He then
“re-opened the threat assessment” and “determined . . . that the best course of action was to
interview [Plaintiff] and see if [he] could determine her intent.” (Dkt. No. 30-6 at 3.) LaRosa asked
Defendant Chris Sankowski (“Sankowski”), an officer with the Beaufort County Sheriffs Office,
to “accompany” LaRosa to the interview because he “was in [Sankowski’s] jurisdiction.” (Id.)
Defendants LaRosa and Sankowski interviewed Plaintiff at her apartment on April 20,
2017. (Dkt. Nos. 1 at 6; 30-6 at 3.) Defendant LaRosa avers that he first called Plaintiff and asked
her to meet him at her apartment to talk. (Dkt. No. 30-6 at 3.) Plaintiff contends that she “was
cornered” and Defendants “scared [her] into meeting.” (Dkt. No. 39 at 10-11.)
Both Defendants and Plaintiff have provided recordings of their April 20, 2017 interaction.
(Dkt. Nos. 30-7; 42.) Defendants have also provided a transcript of the interaction, transcribed by
a court reporter from Defendants’ recording. (Dkt. No. 30-8.) While Plaintiff disputes the accuracy
of this transcript, (Dkt. No. 39 at 7), the undersigned can discern no difference between the
recordings provided by the parties. However, in an abundance of caution, the undersigned bases
the below facts on the recording provided by Plaintiff.
Plaintiffs recording indicates that Plaintiff and Defendant exchanged pleasantries when
they first met and that Plaintiff did not object to Defendants coming inside her apartment. Plaintiff
says, “Come on in.” Defendant LaRosa responds, “Is it all right if we come in?” Plaintiff then
confirms that they may come in. (Dkt. No. 42:3:26-3:30.) Once inside, Defendant LaRosa explains
to Plaintiff who he is and what he does for a living. (Id. 3:30.) He can be heard saying, “Yes, you
have a right to free speech.” (Id. 4:29.) Defendant LaRosa explains that South Carolina law
prevents someone from making certain “inappropriate comments.” (Id. 5:18.) He reads Plaintiff

3

her April 13, 2017 post and asks which judges she was referring to. Plaintiff responds, “The one
in there” and then a couple of judges in the North. {Id. 6:12.) Plaintiff tells LaRosa she talks to a
lot of people down at “FCLU” who are upset, and that she is “just posting what I know to be true.”
{Id. 6:50-7:05.)
LaRosa then reads Plaintiffs March 4, 2017 post. {Id. 7:33.) Plaintiff responds, “this is not
intent.” {Id. 8:00.) She tells LaRosa, “This is ridiculous. I have a life to do. I did nothing wrong.
I’m using my freedom of speech. I’m mad because there’s corruption out here and I’m winning in
the appellate and federal courts against them because they’re off the wall crazy and I get to voice
my opinion. That’s all they are. I’ve not killed anybody. I have no police record. I’ve never been
violent. This is ridiculous.” {Id. 8:00.) Plaintiff continues, saying, “These are my constitutional
rights. If there’s a problem, arrest me. But... I didn’t do anything.” {Id. 8:40.)
Plaintiff then begins to cry and says, “I’ve done nothing but be a good mother and a good
person. . . . This system has been horrible to me for being a good mother and a good person. And
I have every right to voice my opinion about how ridiculous this system is here, to parents that are
good, to keep money flowing. I’m tired of it. {Id. 8:40.) Plaintiff further states, “I did nothing
wrong in those posts. I made no threats to anybody. I spoke the truth in those posts.” {Id. 9:05.)
Defendant LaRosa explains to Plaintiff that he is investigating the fact that Plaintiff used
the word “kill” in relation to a judge. {Id. 9:45.) Plaintiff interrupts him and says that it does not
matter. {Id. 9:50.) She does not believe that her posts could lead to criminal charges. Defendant
LaRosa attempts to explain what “intimidation of a court official” means under South Carolina
law. {Id. 10:00.) Plaintiff asks that LaRosa show her the law that prohibits her posts. {Id. 10:20.)
LaRosa tells her that under South Carolina law, “if you make a statement involving a case in which
you were in and when it can be interpreted that you are making an intimidating statement against

4

the system. .

LaRosa then reads the portions of Plaintiffs posts that he found troubling. {Id.

10:40.)
Plaintiff says the state court cannot take away her constitutional rights, and asks LaRosa to
“ger me the laws and I will look at them.” LaRosa tells Plaintiff he will be glad to assist her with
“understanding what intimidation of a court official is.” {Id. 11:10.) Plaintiff tells LaRosa “There’s
no intent. This is meant to make me stop because I’m winning.” {Id. 13:20.) LaRosa denies this
and tells Plaintiff “there are groups like Facebook that monitor what gets put on their social media.”
{Id. 14:05.)
Plaintiff responds, “I’m sorry but there is no intent there and there is no intimidation of any
court official. I wrote the true statements of what was happening and going on at that time as
known to be true and I can back it up with character witnesses and emails. So if you have anything
else to talk about, great, but other than that, I really can’t help you. There was no intent, sir. {Id.
14:00.) LaRosa says, “that’s great.” {Id. 14:20.) LaRosa states that he is not telling her “what you
can and can’t post on facebook.” {Id. 16:17.) “I’m just letting you know that sometimes your
language in there, whether it’s the truth or not, can be miscon . . .” (Id. 16:30.) Plaintiff then
interrupts him LaRosa before he can finish, stating “It doesn’t matter.” Plaintiff states there is a
Supreme Court case stating that it is her First Amendment right to post what she wants on social
media. {Id. 16:55.)
LaRosa says he will email Plaintiff the relevant South Carolina statutes “when I get back
to the office.” {Id. 19:55.) Plaintiff states, “I’m not intimidating a court official” and LaRosa
responds, “I know that now. That’s why I came down here.” {Id. 20:40) He tells Plaintiff, “Without
knowing who you were as a person, I had to come down here and talk to you face to face to make
that decision.” {Id. 21:00.) He tells Plaintiff, “If I can make just a general recommendation, I’m

5

going to keep getting phone calls from these social media monitors . . . (Id. 21:35.) “My
recommendation ... is you can say whatever you want to about judges, but you can’t use the word
kill in the sentence before or after, I’m just saying in general practice.” (Id. 22:00.) LaRosa gives
Plaintiff his cell phone number and obtains her email so he can email her the South Carolina
statutes. (Id. 24:00.) He tells Plaintiff, “I’ve got a better understanding of where you’re coming
from”. (Id. 25:18.) “Just, I’m not telling you what to put or not to put, I don’t have any power over
that, I’m just letting you know that whenever I get notified that there’s a new post on Facebook,
that it’s a concern, I’ll review it. I’ve got your cell phone number, I’ll call you and ask you what
you meant by it. Would that be better? Instead of driving all the way down here?” (Id. 25:40.) He
also states to Plaintiff, “Can you at least, so that Facebook’s not notifying me, just, not tone down
the language, just watch out for those buzz words. That’s what got me down here.” (Id. 26:59.)
LaRosa tells Plaintiff, “I don’t arrest people, I don’t do a lot of things, I’m here to make
sure everybody’s safe.” (Id. 28:35.) Plaintiff responds, “I have to be. I have to be loud. I have to
be out there. I have to let people know.” LaRosa then states, “Absolutely. And I have no issues
whatsoever, with you doing that.” (Id. 29:00.) Plaintiff then states, “Every day I step out of this
house, I’m scared to death. Everyday. Nobody does anything about it. That’s why I’m so
emotional. Every day I live on edge. Everyday I’m shaking. Every day I worry about my daughter’s
safety.” (Id. 29:40.)
Plaintiff then asks LaRosa to explain the “characteristics” of intimidation of a court official.
She explains that to prove first amendment retaliation, for example, “there are five things that you
would have to meet for it to be that. So if I’m intimidating a court official, what criteria do I have
to meet?” LaRosa spends a few minutes giving an example to Plaintiff of what falls under that
statute. (Id. 31:15.)

6

When Plaintiff continues to express frustration with the family court system, LaRosa
explains how Plaintiff can try to work with SLED to resolve her problems with the family court.
(Id. 39:30.) Before leaving, LaRosa tells Plaintiff, “No one’s going to jail. Nobody’s getting a
mental health pickup order. Nobody’s going to be sued. Not from me. .. You’ve helped clear that
up and I appreciate that. If I get notified again . . . I’ll call you. . . . It’s just one of those things.”
(Id. 43:30.) He tells Plaintiff she can explain her intent to him and “that’s it.” (Id. 43:40) Plaintiff
is heard thanking Defendants as they leave and asking Sankowski to remind her of his name. (Id.
44:00.)
The Complaint alleges that Defendants “violated [Plaintiffs] Free Speech rights under the
US Constitution and under the South Carolina Constitution when they informed [her] that she had
to avoid using certain words and terms; that while they personally could not arrest her, their reports
could be used by other law enforcement staff to arrest her for intimidation of a judge . . .” (Dkt.
No. 1 at 8.) The Complaint further alleges that as a result of Plaintiff s interaction with Defendants,
she now suffers “sleepless nights and has suffered panic attacks and numerous adverse emotional
and physical reactions.” (Id. at 9.) Plaintiff brings claims against Defendants for alleged violations
of her First Amendment rights under the United States and South Carolina Constitutions. She
further claims that Defendants participated in a conspiracy to violate her First Amendment rights
and intentionally inflicted emotional distress on her. (Dkt. No. 1.)
On October 15, 2018, Plaintiff filed a Motion to Notify Court of Defendant Conduct. (Dkt.
No. 29.) On October 16, 2018, Defendants filed a Motion for Summary Judgment. (Dkt. No. 30.)
Plaintiff filed a response in opposition to the Motion for Summary Judgment as well as two surreplies. (Dkt. Nos. 39; 41; 43.) Defendants filed a response in opposition to Plaintiffs Motion to

7

Notify the Court on October 18, 2018. (Dkt. No. 33.) The motions have been fully briefed and are
(

ripe for disposition.
STANDARD
A. Liberal Construction of Pro Se Complaint

Plaintiff brought this action pro se, which requires the Court to liberally construe her
pleadings. Estelle v. Gamble, 429 U.S. 97, 106 (1976); Haines v. Kerner, 404 U.S. 519, 520 (1972)
(per curiam); Loe v. Armistead, 582 F.2d 1291, 1295 (4th Cir. 1978); Gordon v. Leeke, 574 F.2d
1147, 1151 (4th Cir. 1978). Pro se pleadings are held to a less stringent standard than those drafted
by attorneys. Haines, 404 U.S. at 520.. The mandated liberal construction means that only if the
court can reasonably read the pleadings to state a valid claim on which the complainant could
prevail, it should do so. Barnett v. Hargett, 174 F.3d 1128, 1133 (10th Cir. 1999). A court may not
construct the complainant’s legal arguments for her. Small v. Endicott, 998 F.2d 411,417-18 (7th
Cir. 1993). Nor should a court “conjure up questions never squarely presented.” Beaudett v. City
of Hampton, 775 F.2d 1274, 1278 (4th Cir. 1985).
B. Summary Judgment Standard
Pursuant to Rule 56 of the Federal Rules of Civil Procedure, summary judgment “shall” be
granted “if the movant shows that there is no genuine dispute as to any material fact and that the
movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). “Facts are ‘material
when they might affect the outcome of the case, and a ‘genuine issue’ exists when the evidence
would allow a reasonable jury to return a verdict for the nonmoving party.” The News & Observer
Publ’g Co. v. Raleigh-Durham Airport Auth., 597 F.3d 570, 576 (4th Cir. 2010) (citing Anderson
v. Liberty Lobby, Inc., All U.S. 242, 248 (1986)). In ruling on a motion for summary judgment,
“‘the nonmoving party’s evidence is to be believed, and all justifiable inferences are to be drawn

8

in that party’s favor.”’ Id. (quoting Hunt v. Cromartie, 526 U.S. 541, 552 (1999)); see also Perini
Corp. v. Perini Constr., Inc., 915 F.2d 121, 123-24 (4th Cir. 1990).
DISCUSSION
A. Defendants’ Motion for Summary Judgment (Dkt. No. 30)
In their Motion for Summary Judgment, Defendants deny that they violated Plaintiff s First
Amendment rights and argue that they are entitled to qualified immunity on her § 1983 claims.
(Dkt. No. 30-1 at 1-2.) They argue that Plaintiffs state-law claims also fail as a matter of law.
(Id.) The Court considers Plaintiffs causes of action in turn.
1. § 1983 First Amendment Violations
Plaintiff first asserts that Defendants violated her First Amendment rights by investigating
Plaintiff “for alleged violations of S.C. Stats. 16-3-1040 and 16-9-340 ... in an attempt to
intimidate [Plaintiff], chill her speech and harass her.” (Dkt. No. 1 at 16.) She asks for an
“injunction against [Defendants] . . . from demanding investigations of the Plaintiff and that she
refrain . . . using ‘certain words and phrases’ in her Facebook posts regarding judges and court
officials. . . .” (Id.)
a. Qualified Immunity Standard
“Qualified immunity shields government officials from civil liability insofar as their
conduct does not violate clearly established statutory or constitutional rights of which a reasonable
person would have known.” Hill v. Crum, 727 F.3d 312, 321 (4th Cir. 2013) (quoting Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982)). Qualified immunity protects officers from liability for “bad
guesses in gray areas” and bases liability on the violation of bright-line rules. Id. (quoting Braun
v. Maynard, 652 F.3d 557, 560 (4th Cir. 2011)). “Qualified immunity provides ‘an immunity from
suit rather than a mere defense to liability; and like an absolute immunity, it is effectively lost if a

9

case is erroneously permitted to go to trial.’” Cloaninger ex rel. Estate of Cloaninger v. McDevitt,
555 F.3d 324, 330 (4th Cir. 2009) (quoting Mitchell v. Forsyth, 472 U.S. 511, 526 (1985)). The
Supreme Court has “repeatedly ... stressed the importance of resolving immunity questions at the
earliest possible stage in litigation.” Hunter v. Bryant, 502 U.S. 224, 227 (1991) (per curiam).
“In determining whether an officer is entitled to summary judgment on the basis of
qualified immunity, courts engage in a two-pronged inquiry.” Smith v. Ray, 781 F.3d 95, 100 (4th
Cir. 2015). The first prong asks “whether the facts, viewed in the light most favorable to the
plaintiff, show that the officer’s conduct violated a federal right.” Ray, 781 F.3d at 100. “The
second prong of the qualified-immunity inquiry asks whether the right was clearly established at
the time the violation occurred such that a reasonable person would have known that his conduct
was unconstitutional.” Id. ‘“We do not require a case directly on point’ in order to conclude that
the law was clearly established so long as ‘existing precedent [has] placed the statutory or
constitutional question beyond debate.’” Id. (quoting Ashcroft v. al-Kidd, 563 U.S. 731 (2011)).
“To be clearly established, a right must be sufficiently clear ‘that every reasonable official would
[have understood] that what he is doing violates that right.’ In other words, ‘existing precedent
must have placed the statutory or constitutional question beyond debate.’” Reichle v. Howards,
566 U.S. 658, 664 (2012) (quoting Ashcroft, 563 U.S. at 741) (some internal quotation marks and
citations omitted)).
District court and court of appeals judges are “permitted to exercise their sound discretion
in deciding which of the two prongs of the qualified immunity analysis should be addressed first
in light of the circumstances in the particular case at hand.” Pearson v. Callahan, 555 U.S. 223,
236 (2009). If a court decides in the negative the first prong it considers—i.e., the court decides
the plaintiff has not alleged the deprivation of an actual constitutional right or the right was not

10

clearly established at the time of the alleged violation—the court need not consider the other prong
of the qualified immunity analysis. See id. at 243-45.
b. Analysis
Viewed in the light most favorable to Plaintiff, the evidence of record indicates that
Defendant LaRosa received the content of two postings online written by Plaintiff that were
potentially in violation of South Carolina law prohibiting the intimidation of a court official.
Plaintiffs first post contained the words “Judge” and “kill” in the same paragraph. Based on this
posting, LaRosa opened a “threat assessment” report, conducted a background investigation into
Plaintiff, and ultimately determined there was no threat. Plaintiff then made a second post about
five weeks later containing the words “Judges,” “dead,” and “died.” Given the cumulative posts,
LaRosa re-opened the threat assessment and decided to interview Plaintiff to determine the intent
behind her postings.
LaRosa interviewed Plaintiff at her home in Beaufort County. He asked Defendant
Sankowski to accompany him because Beaufort County is in Sankowski’s jurisdiction. In the
recording provided by Plaintiff, Sankowski appears to speak only to introduce himself. He does
not appear to address Plaintiff in any way regarding her online posts. During the interview, LaRosa
tells Plaintiff why her posts are potentially problematic and asks what she intended in writing those
posts. Plaintiff becomes upset and is adamant that she meant no harm to any specific judges.
LaRosa tells her that he believes her and gives her a “general recommendation” not to use “buzz
words” like “kill” in association with a judge. LaRosa tells Plaintiff that if he is notified of a similar
post from her on Facebook, he will review it and likely call her to determine her intent. Prior to
leaving, he emphasizes to Plaintiff that no one is going to jail.

11

Based on the foregoing, the undersigned recommends that Defendants are entitled to
qualified immunity on any claims of First Amendment violations. While somewhat difficult to
parse, Plaintiff appears to allege that Defendants violated her First Amendment rights by
investigating her in retaliation for engaging in constitutionally-protected speech.1 The First
Amendment protects an individual’s right to free speech, free association, and “the right to be free
from retaliation by a public official for the exercise of [those] right[s].” Suarez Corp. Indus, v.
McGraw, 202 F.3d 676, 685 (4th Cir. 2000). A cognizable First Amendment retaliation claim
requires a plaintiff to show: (1) “that [plaintiffs] speech was protected”; (2) “defendant’s alleged
retaliatory action adversely affected the plaintiffs constitutionally protected speech”; and (3) “a
causal relationship exists between [plaintiffs] speech and the defendant’s retaliatory action.” Id.
at 685-86.
Importantly, “the First Amendment does not protect true threats, even if the threat is
conditional in nature.” Jones v. White, No. 5:17-cv-100, 2018 WL 2708750, at *9 (N.D.W. Va.
June 5, 2018). The United States Supreme Court has expressly found that “the First Amendment
[] permits a State to ban a ‘true threat.’” Virginia v. Black, 538 U.S. 343, 359 (2003) (citing Watts
v. United States, 394 U.S. 705, 708 (1969)). “Statements constitute a ‘true threat’ if ‘an ordinary
reasonable recipient who is familiar with the[ir] context. . . would interpret [those statements] as
a threat of injury.’” United States v. Armel, 585 F.3d 182, 185 (4th Cir. 2009) (quoting United
States v. Roberts, 915 F.2d 889, 891 (4th Cir. 1990)). To be considered a “true threat,” the speaker
“need not actually intend to carry out the threat. Rather, a prohibition on true threats ‘protects]
individuals from the fear of violence’ and ‘from the disruption that fear engenders,’ in addition to

1 The Complaint alleges separate causes of action against Defendants for “Violations of 42 U.S.C. SEC. 1983” and
“First Amendment Retaliation.” (Dkt. No. 1.) However, the allegations under those causes of action and Plaintiffs
subsequent pleadings indicate Plaintiff is ultimately alleging First Amendment Retaliation in violation of her
constitutional rights.

12

protecting people ‘from the possibility that the threatened violence will occur.’ Intimidation in the
constitutionally proscribable sense of the word is a type of true threat, where a speaker directs a
threat to a person or group of persons with the intent of placing the victim in fear of bodily harm
or death.” Virginia, 538 U.S. at 359 (citing Watts, 394 U.S. at 708).
Many courts have considered whether qualified immunity applies to a First Amendment
claim where the plaintiff was arrested for violation of a state statute prohibiting the speech at issue.
See, e.g., Ross v. City of Jackson, Missouri, 897 F.3d 916, 922-23 (8th Cir. 2018); Jones, 2018
WL 2708750, at *6 (finding defendants were entitled to qualified immunity where the plaintiff
was arrested for Facebook posts that were “viewed as an online threat made to multiple public
officials” in violation of state law because “the facts show that [defendants] had probable cause to
believe that the plaintiff violated the statute”); Mathis v. McDonough, No. ELH-13-cv-2597, 2015
WL 3853087, at *23 (D. Md. June 19, 2015) (finding officer entitled to qualified immunity on the
plaintiffs First Amendment claim because “[n]o existing precedent recognized as beyond debate
[plaintiffs] right to distribute political literature in violation of [state statute]”) (internal quotations
omitted)). In such cases, the courts consider whether it was objectively reasonable for the officer
to find probable cause existed for the arrest. Here, Plaintiff was investigated for potentially
violating a state statute, with no resulting arrest. However, the same probable cause analysis is
helpful to understand whether qualified immunity should apply in this instance.
For example, in Ross v. City of Jackson, Missouri, the Eighth Circuit Court of Appeals
considered whether qualified immunity applied to a First Amendment claim where the plaintiff
was arrested for violating a state statute based on a comment the plaintiff posted on a social media
website. 897 F.3d at 916-22. The Eighth Circuit found that the officers “were justified in their
efforts to investigate [the plaintiffs] post” as the plaintiffs “statement demonstrated, at a

13

minimum, questionable judgment.” Id. at 922. The court further found that “[i]f any further
investigation had led the officers to believe there was an immediate or imminent danger, they
would have been justified in acting on that information.” Id. The court noted, however, that the
state statute at issue did not apply to any speech other than a true threat, and that even a minimal
further investigation would have revealed that the post was not a true threat. Id. Because the
officers arrested the plaintiff where “minimal further investigation” would have revealed the
plaintiff had not violated the state statue, the court found qualified immunity did not apply. Id. at
923.
Here, the facts indicate it was objectively reasonable for Defendant LaRosa to believe that
Plaintiff was potentially making a “true threat” in violation of the South Carolina statute
prohibiting intimidation of a court official, thereby warranting an investigatory interview with
Plaintiff. In other words, LaRosa was “justified in [his] efforts to investigate [Plaintiff s] post[s].”
Ross, 897 F.3d at 922. After interviewing Plaintiff, LaRosa concluded that her past two posts were
not a “true threat” and did not warrant further action. However, based on Plaintiffs statements in
the interview, it was objectively reasonable for LaRosa to conclude that Plaintiff would post what
could be perceived as “true threats” online in the future, absent his general recommendation that
she avoid using certain buzz words. The recording of the interview reveals that Defendants did not
arrest Plaintiff or threaten to arrest Plaintiff in the future.
In sum, the undersigned finds that a reasonable person would not have known whether
Plaintiff was making a true threat in violation of the state statute or simply engaging in protected
speech when she made the postings at issue. Thus, it was objectively reasonable for Defendants to
interview Plaintiff to determine her intentions behind the postings. Defendants are therefore
entitled to qualified immunity on Plaintiffs First Amendment claims. See, e.g., Owens v.

14

Baltimore City State’s Attorneys Office, 767 F.3d 379, 395 (4th Cir. 2014) (“Qualified immunity
protects government officials from liability for ‘civil damages insofar as their conduct does not
violate clearly established . . . rights of which a reasonable person would have known.’” (quoting
Harlow, 457 U.S. at 818)); Waterman v. Batton, 393 F.3d 471,476 (4th Cir. 2005) (explaining that
qualified immunity safeguards “law enforcement officers from bad guesses in gray areas,” by
“ensuring] that they are liable only for transgressing bright lines” (citations and quotation marks
omitted)); Jones, 2018 WL 2708750, at *6; Mathis, 2015 WL 3853087, at *23.
In addition, to the extent Plaintiff could establish that the speech at issue was clearly
protected, courts in this circuit have held that retaliatory investigations are not constitutional
violations in the First Amendment context and cannot support a section 1983 claim. See, e.g.
Singletary on behalfofN.M.M. v. Cumberland Cty. Sch., No. 5:12-cv-744-FL, 2016 WL 8711336,
at *8 (E.D.N.C. Feb. 12, 2016) (“Plaintiffs claim of retaliatory investigation based on her exercise
of freedom of speech fails as a matter of law.”), adopted sub nom. Singletary v. Cumberland Cty.
Sch., 2016 WL 953256 (E.D.N.C. Mar. 14, 2016); Nance v. Ingram, No. 7:14-cv-9-FL, 2015 WL
5719590, at *8 (E.D.N.C. Sept. 29,2015) (“there is no clearly established right not to be the subject
of a retaliatory investigation”).
For these reasons, the undersigned recommends summary judgment be granted to
Defendants on Plaintiffs First Amendment claims.
c. Injunctive Relief
Because a finding of qualified immunity extends only to Defendants’ liability for damages,
the undersigned must address Plaintiffs claim for injunctive relief. See Harlow, 457 U.S. at 819
n.34. Plaintiff asks for an “injunction against [Defendants] . . . from demanding investigations of
the Plaintiff and that she refrain . . . using ‘certain words and phrases’ in her Facebook posts

15

regarding judges and court officials...(Dkt. No. 1 at 16.) The undersigned recommends finding
that injunctive relief is not appropriate on this record. The Fourth Circuit Court of Appeals has
recognized that “federal injunctive relief is an extreme remedy.” Simmons v. Poe, 47 F.3d 1370,
1382 (4th Cir. 1995). To obtain such an injunction, a plaintiff must show (1) irreparable injury, (2)
remedies at law “are inadequate to compensate for that injury,” (3) “the balance of hardships
between the plaintiff and defendant” warrants a remedy, and (4) an injunction would not disserve
the public interest. Monsanto Co. v. Geertson Seed Farms, 561 U.S. 139, 156-57 (2010).
Where a § 1983 plaintiff also seeks injunctive relief, it will not be granted absent the
plaintiffs showing that there is a “real or immediate threat that [he] will be wronged again ... in
a similar way.” Simmons, 47 F.3d at 1382 (quoting City ofLos Angeles v. Lyons, 461 U.S. 95, 111
(1983)). Here, Plaintiff has failed to establish that she will be subject to any unreasonable
investigations in the future. Rather, construing the facts in the light most favorable to Plaintiff,
there is no indication that Defendants will contact Plaintiff again unless she makes a posting online
that could be interpreted as a true threat in violation of South Carolina law. Such facts fail to
establish a “real or immediate threat that [Plaintiff] will be wronged again.” Simmons, 47 F.3d at
1382; see also Jones, 2018 WL 2708750, at *10 (finding Plaintiff is not entitled to injunctive relief
related to his First Amendment claim where he “has not pled any facts suggesting that he will be
subjected to future arrests and criminal prosecutions based on his Facebook posts”). The
undersigned therefore recommends granting summary judgment as to Plaintiffs claim for
injunctive relief.
2. Violations of South Carolina Free Speech Rights
Plaintiff also alleges that Defendants engaged in “Free Speech Retaliation” under the South
Carolina Constitution by “entering [Plaintiffs] private home to investigate her, by undertaking an

16

investigation without probable cause or a reasonable suspicion[,] and intimidating Plaintiff [] that
she must not use certain words and terms on her internet postings.” (Dkt. No. 1 at 21-22.)
Article I, Section 2 of the South Carolina Constitution states that “[t]he General Assembly
shall make no law . . . abridging the freedom of speech or of the press; or the right of the people
peaceably to assemble and to petition the government or any department thereof for a redress of
grievances.”
As an initial matter, the undersigned cannot find a cause of action for “free speech
retaliation” under the South Carolina Constitution that would apply here. Rather, the undersigned
can only find such claims of retaliation in instances where some action has been taken against a
public employee. See, e.g., Botchie v. O'Dowd, 318 S.C. 130, 133, 456 S.E.2d 403, 405 (1995)
(considering “whether the discharge of a public employee for speech activity violates the First
Amendment”); Stevenson v. Lower Marion Cty. Sch. Dist. No. Three, 285 S.C. 62, 65, 327 S.E.2d
656, 658 (1985) (considering respondent teacher’s claim “that his transfer was unconstitutionally
motivated and a retaliatory response to his exercise of First Amendment rights”).
To the extent Plaintiff asserts the violation of her free speech rights under the South
Carolina Constitution, in State v. Ramsey, the South Carolina Supreme Court echoed the United
States Supreme Court in finding that “A statute directed at conduct rather than speech may stand;
and a statute reaching a proscribable class of speech, such as threats of violence, does not infringe
on First Amendment rights.” 311 S.C. 555, 560, 430 S.E.2d 511, 514 (1993) (citing R.A.V. v. City
of St. Paul, Minn., 505 U.S. 377, 388 (1992)).
Here, for reasons discussed above, Plaintiff has failed to establish a genuine issue of
material fact that Defendants violated her free speech rights in conducting an investigation to
determine whether she violated S.C. Code Ann. § 16-9-340. The undersigned therefore

17

recommends granting summary judgment to Defendants on Plaintiffs “free speech” claim under
South Carolina law.
3. Civil Conspiracy
Plaintiff also alleges Defendants engaged in a “civil conspiracy to deprive Plaintiff of her
First Amendment and civil rights.” (Dkt. No. 1 at 17.) Relevant to the Defendants in this action,
she alleges that “Defendants directly participated in a Motion and Hearing without notice to obtain
a wrongful Court Order to remove Content from Plaintiffs Social Media websites.”2 {Id. at 18.)
She further alleges under this cause of action that the “wrongful and illegal ‘investigation’
undertaken by [Defendants] ... further was intended to wrongfully deprive Plaintiff [] of her civil
rights and Free Speech rights.” {Id. at 18-19.)
It appears Plaintiff brings her civil conspiracy claim under both state and federal law. (Dkt.
Nos. 1 at 17-20; 39 at 13-14.) The undersigned considers these claims in turn.
a. Common Law Civil Conspiracy
Under South Carolina common law, a claim for civil conspiracy requires three elements:
(1) a combination of two or more persons, (2) for the purpose of injuring the plaintiff, and (3)
causing plaintiff special damage. Vaught v. Waites, 300 S.C. 201,208, 387 S.E.2d91,95 (Ct. App.
1989). A claim for civil conspiracy must allege additional acts in furtherance of a conspiracy rather
than reallege other claims within the complaint. Todd v. S.C. Farm Bureau Mut. Ins. Co., 276 S.C.
284, 293,278 S.E.2d 607, 611 (1981) rev ’don other grounds, 283 S.C. 155, 321 S.E.2d 602 (1984)
quashed in part on other grounds, 287 S.C. 190, 336 S.E.2d 472 (1985). Moreover, because the

2 Here, it is not clear to what “Motion and Hearing” Plaintiff is referring. Elsewhere in the Amended Complaint,
Plaintiff mentions “cease and desist letters” sent to her by individuals who are not parties to this action, on November
21, 2016 and December 9, 2016, “demanding that she remove content from her social media pages and posts.” (Dkt.
No. 1 at 12.) According to Plaintiff, a hearing was held “on a charge of indirect civil contempt” wherein she was found
“in Contempt of Court.” {Id. at 12-13.) The Amended Complaint offers no indication that Defendants were involved
in these “cease and desist letters” or in the resulting contempt hearing.

18

quiddity of a civil conspiracy claim is the special damage resulting to the plaintiff, the damages
alleged must go beyond the damages alleged in other causes of action. Vaught, 300 S.C. at 209,
387 S.E.2d at 95.
Here, Plaintiff has failed to allege any additional acts in furtherance of a conspiracy by
Defendants. (Dkt. No. 1.) See, e.g., Doe v. Erskine Coll., No. 8:04-cv-23001-RBH, 2006 WL
1473853, at *17 (D.S.C. May 25, 2006) (granting defendant's motion for summary judgment on
plaintiffs civil conspiracy action because “the Complaint does not plead specific facts in
furtherance of the conspiracy; instead the Complaint simply restates alleged wrongful acts pled in
relation to the plaintiffs other claims for damages.”); James v. Pratt & Whitney, 126 Fed. App’x.
607, 613, 2005 WL 670623 (D.S.C. 2005) (“If appellant failed to allege facts for his civil
conspiracy claim separate and distinct from his other two claims, then his civil conspiracy claim
would fail under Todd."). There is no evidence in the record sufficient to establish a genuine issue
of material fact that Defendants conspired against Plaintiff. In addition, Plaintiff has failed to plead
any special damages under this cause of action—rather the damages here are the same as alleged
in the other causes of action. See Doe, 2006 WL 1473853, at *17 (holding plaintiffs conspiracy
claim failed as a matter of law because plaintiff failed to plead special damages; instead plaintiffs
conspiracy count “merely realleged[d] the same damages [p]laintiff claim[ed] to have suffered in
relation to her other claims”).
For these reasons, the undersigned recommends granting summary judgment to Defendants
on Plaintiffs civil conspiracy claim under state law.
b. Statutory Civil Conspiracy under § 1985.
To state a conspiracy claim under 42 U.S.C. § 1985, a plaintiff must prove the following:
(1) a conspiracy of two or more persons, (2) who are motivated by a specific class-based,

19

invidiously discriminatory animus to (3) deprive the plaintiff of the equal enjoyment of rights
secured by the law to all, (4) and which results in injury to the plaintiff as (5) a consequence of an
overt act committed by the defendants in connection with the conspiracy. A Soc ’y Without A Name
v. Virginia, 655 F.3d 342, 346 (4th Cir. 2011) (quoting Simmons, 47 F.3d at 1376). Moreover, the
plaintiff ‘“must show an agreement or a meeting of the minds by [the] defendants to violate the
[plaintiffs] constitutional rights.’” Id. (quoting Simmons, 47 F.3d at 1377). The court must reject
§ 1985 claims whenever the purported conspiracy is alleged in a merely conclusory manner, in the
absence of concrete supporting facts. Id.
As discussed above, Plaintiff has failed to establish a genuine issue of material fact as to
whether Defendants conspired against her to deprive her of any constitutional rights. The
undersigned therefore recommends granting summary judgment on Plaintiffs civil conspiracy
claim under § 1985.
4. Intentional Infliction of Emotional Distress
Finally, Plaintiff brings a claim for intentional infliction of emotional distress. The tort of
intentional infliction of emotional distress arises when one by extreme and outrageous conduct
intentionally or recklessly causes severe emotional distress to another. Ford v. Hutson, 276 S.C.
157, 276 S.E.2d 776 (1981). To recover for intentional infliction of emotional distress, a plaintiff
must establish that: (1) the defendant intentionally or recklessly inflicted severe emotional distress
or was certain or substantially certain that such distress would result from his conduct; (2) the
conduct was so extreme and outrageous as to exceed all possible bounds of decency and must be
regarded as atrocious, and utterly intolerable in a civilized community; (3) the actions of the
defendant caused the plaintiffs emotional distress; and (4) the emotional distress suffered by the

20

plaintiff was so severe that no reasonable man could be expected to endure it. See State Farm Fire
& Cas. Co. v. Barrett, 340 S.C. 1, 530 S.E.2d 132 (Ct. App. 2000).
Whether the evidence suggests defendant’s conduct may “reasonably constitute outrageous
conduct” is a question of law for the court. Todd, 283 S.C. at 168, 336 S.E.2d at 609. Only if
sufficient evidence exists may a jury determine if the conduct was in fact outrageous behavior. Id.
Here, even construing the facts in the light most favorable to Plaintiff, she has failed to establish
that Defendants’ conduct was “so extreme and outrageous as to exceed all possible bounds of
decency and must be regarded as atrocious, and utterly intolerable in a civilized community.” Id.
at 166, 366 S.E.2d at 609. As discussed above, the investigation was objectively reasonable under
the circumstances.
The undersigned therefore recommends summary judgment be granted to Defendants on
Plaintiffs claim for intentional infliction of emotional distress.
B. Plaintiffs Motion to Notify the Court of Defendant Conduct (Dkt. No. 29)
As mentioned above, Plaintiff has filed a Motion to Notify the Court of Defendant Conduct.
(Dkt. No. 29.) In her Motion, she claims “defendant” has allegedly “manipulated” Plaintiff. {Id.)
Specifically, Plaintiff alleges that opposing counsel intentionally delayed sending Plaintiff
Defendants’ “motions for expert witnesses” and that “an expert witness defendant” will lie if he
testifies as expert witness in this action. {Id.) Related to the issue of the expert witnesses, Plaintiff
asks the Court “to please explain how the Daubert motion would help,” {Id. at 4.)
As an initial matter, it is not clear what relief Plaintiff seeks in her Motion—she states that
she “just wanted the honorable court to see how the process is manipulated and seek action if [it]
deems fit.” {Id. at 4.) She further states that she “just wanted to be heard . . . [and] cannot thank
the honorable court ENOUGH FOR LETTING ME be heard.” {Id.) To the extent Plaintiff seeks

21

sanctions pursuant to Rule 11, Fed. R. Civ. P., this request is denied. Defendants have responded
to Plaintiffs Motion, stating that “expert disclosures were timely filed and served.” (Dkt. No. 33.
At 2.) They cite the Certificate of Service filed on August 31, 2018, certifying that Plaintiff was
served with a copy of Defendants’ expert disclosures. (Dkt. No. 20-1.) Defendants also filed their
expert witness disclosures with the Court on August 31, 2018. (Dkt. No. 20.) Plaintiff has failed
to provide any evidence to dispute that such service was untimely.
Further, Plaintiffs discussion of an “expert witness defendant” rehashes arguments made
in her prior Motion to Deny Paul C. LaRosa, Captain William Mitchell, and Lieutenant William
Neil as expert witnesses. (Dkt. No. 23.) In her Motion to Deny, Plaintiff had sought to exclude
these individuals as expert witnesses at trial because of their connection to the Beaufort County
Sheriffs Department. In an Order issued October 5, 2019, the Court explained to Plaintiff the
Federal Rules of Civil Procedure governing expert opinion testimony and cited the Supreme Court
case, Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579 (1993). (Dkt. No. 27 at 7-9.)
The Court denied Plaintiffs motion, finding that the briefings submitted by the parties failed to
establish “that [these individuals] are inherently biased in this case such that they should not be
allowed to testify as experts.” {Id. at 9.) The Court noted that if Plaintiff wished to “further dispute
the admission of Defendant LaRosa, Captain Mitchell, and Colonel Neil as experts, she may file
the appropriate motion pursuant to Rule 702.” {Id.) .
Here, should the District Court adopt the undersigned’s recommendation that summary
judgment be granted on all of Plaintiffs claims, there will be no trial and no need to further
consider the admission of Defendant LaRosa, Captain Mitchell, and Colonel Neil as expert
witnesses. If any of Plaintiff s claims ultimately survive summary judgment, Plaintiff may file a

22

motion seeking the exclusion of any expert witness testimony pursuant to Rule 702 of the Federal
Rules of Civil Procedure, as described in the Court’s October 5, 2019 Order. (Dkt. No. 27.)
In sum, to the extent Plaintiffs Motion seeks relief from the Court, her Motion to Notify
is denied.
CONCLUSION
For the foregoing reasons, the undersigned RECOMMENDS that the Court GRANT
Defendants’ Motion for Summary Judgment (Dkt. No. 30). The undersigned further DENIES
Plaintiffs Motion to Notify the Court of Defendant Conduct (Dkt. No. 29).
AND IT IS SO RECOMMENDED AND SO ORDERED.

March 15,2019

/l^RYa^RDON BAKER
UNITED STATES MAGISTRATE JUDGE

Charleston, South Carolina

23

Notice of Right to File Objections to Report and Recommendation
The parties are advised that they may file specific written objections to this Report
and Recommendation with the District Judge. Objections must specifically identify the
portions of the Report and Recommendation to which objections are made and the
basis for such objections. “[I]n the absence of a timely filed objection, a district court
need not conduct a de novo review, but instead must ‘only satisfy itself that there is no
clear error on the face of the record in order to accept the recommendation.’” Diamond v.
Colonial Life & Acc. Ins. Co., 416 F.3d 310 (4th Cir. 2005) (quoting Fed. R. Civ. P. 72
advisory committee’s note).
Specific written objections must be filed within fourteen (14) days of the date of
service of this Report and Recommendation. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b);
see Fed. R. Civ. P. 6(a), (d). Filing by mail pursuant to Federal Rule of Civil Procedure 5
may be accomplished by mailing objections to:
Robin L. Blume, Clerk
United States District Court
Post Office Box 835
Charleston, South Carolina 29402
Failure to timely file specific written objections to this Report and
Recommendation will result in waiver of the right to appeal from a judgment of the
District Court based upon such Recommendation. 28 U.S.C. § 636(b)(1); Thomas v.
Am, 474 U.S. 140 (1985); Wright v. Collins, 766 F.2d 841 (4th Cir. 1985); United States v.
Schronce, 727 F.2d 91 (4th Cir. 1984).

